<html>
<title> - BABY BOOMERS AT THE GATE: ENHANCING INDEPENDENCE THROUGH INNOVATION AND TECHNOLOGY</title>
<body><pre>[Senate Hearing 108-108]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-108

                       BABY BOOMERS AT THE GATE:
        ENHANCING INDEPENDENCE THROUGH INNOVATION AND TECHNOLOGY

=======================================================================

                                HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             WASHINGTON, DC

                               __________

                              MAY 20, 2003

                               __________

                           Serial No. 108-11

         Printed for the use of the Special Committee on Aging



88-497              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                       SPECIAL COMMITTEE ON AGING

                      LARRY CRAIG, Idaho, Chairman
RICHARD SHELBY, Alabama              JOHN B. BREAUX, Louisiana, Ranking 
SUSAN COLLINS, Maine                     Member
MIKE ENZI, Wyoming                   HARRY REID, Nevada
GORDON SMITH, Oregon                 HERB KOHL, Wisconsin
JAMES M. TALENT, Missouri            JAMES M. JEFFORDS, Vermont
PETER G. FITZGERALD, Illinois        RUSSELL D. FEINGOLD, Wisconsin
ORRIN G. HATCH, Utah                 RON WYDEN, Oregon
ELIZABETH DOLE, North Carolina       BLANCHE L. LINCOLN, Arkansas
TED STEVENS, Alaska                  EVAN BAYH, Indiana
RICK SANTORUM, Pennsylvania          THOMAS R. CARPER, Delaware
                                     DEBBIE STABENOW, Michigan
                      Lupe Wissel, Staff Director
             Michelle Easton, Ranking Member Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Larry E. Craig......................     1
Statement of Senator John Breaux.................................     2

                                Panel I

Josefina G. Carbonell, Assistant Secretary for Aging, U.S. 
  Department of Health and Human Services, Washington, DC........     3

                                Panel II

Maria Greene, Director, Georgia Department of Human Resources, 
  Division of Aging Services, Atlanta, GA........................    28
Kevin J. Mahoney, Ph.D., National Program Director, Cash and 
  Counseling Demonstration and Evaluation Project, Chestnut Hill, 
  MA.............................................................    48
Ronald H. Aday, Ph.D., Director of Aging Studies, Middle 
  Tennessee State University, Murfreesboro, TN...................    69
Gregory D. Abowd, Ph.D., Associate Professor, College of 
  Computing, and GVU Center Director, Aware Home Research 
  Initiative, Georgia Institute, Georgia Institute of Technology.    83

                                APPENDIX

Statement from Center for Aging Services Technologies, American 
  Association of Homes and Services for the Aging................   107
Statement from Tobey Gordon Dichter, Founder, CEO Generations on 
  Line...........................................................   113

                                 (iii)

  

 
BABY BOOMERS AT THE GATE: ENHANCING INDEPENDENCE THROUGH INNOVATION AND 
                               TECHNOLOGY

                              ----------                              --



                         TUESDAY, MAY 20, 2003

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The committee convened, pursuant to notice, at 2:05 p.m., 
in room SD-628, Dirksen Senate Office Building, Hon. Larry 
Craig (chairman of the committee) presiding.
    Present: Senators Craig and Breaux.

       OPENING STATEMENT OF SENATOR LARRY CRAIG, CHAIRMAN

    The Chairman. The Senate Special Committee on Aging will 
convene. Let me first of all thank our panelists for their 
flexibility in meeting the scheduling change that we had that 
pushed this hearing into the afternoon. I want to thank you for 
that.
    Also, I want to thank Senator Breaux for being here. 
Yesterday, he held, I think, a very successful hearing by all 
accounts dealing with senior access, and certain protocols and 
other activities that relate to the formulation and development 
of pharmaceuticals and other interests and issues.
    Both John Breaux and I work to share this committee and its 
authority. We think this is certainly an issue for all 
Americans. It is not a partisan issue. The business of aging, I 
think we find that Democrats and Republicans age at about the 
same rate. [Laughter.]
    Senator Breaux. I'm aging faster. [Laughter.]
    The Chairman. Just wanted to check him out and see if he 
was awake there. No.
    But good afternoon to all of you. I am pleased to convene 
this hearing in recognition of Older Americans' Month and to 
explore a wide range of policy issues impacting older Americans 
and their families. Such an ongoing dialog is imperative since 
the first wave of baby boomers will turn 60 in less than 3 
years.
    Today, we will hear testimony from various innovative 
thinkers. We will hear about the Older Americans Act and the 
Family Careviger Program, a new approach to Medicaid service 
delivery, plans for modernizing our nation's senior centers, 
and the technological opportunities available to seniors.
    It is estimated that in 2006, over three million baby 
boomers will turn 60 and become eligible for older Americans 
services. This new wave of seniors will have a very different 
set of characteristics from the previous generation. It is, 
therefore, critical that we in Congress review and design 
national policies to address these new demands.
    I believe the central strategy for meeting the new 
challenges of the 21st century is that of innovation, new and 
bold programs and technologies that enhance independence for 
all older Americans. Today's testimony will highlight some of 
these innovations.
    We will hear about the Older Americans Act and its newest 
addition, the National Family Caregivers Program. It is well 
known that family caregivers are on the front lines of long-
term care for older persons in this country. It is important 
that these programs continue to evolve and assist family 
caregivers so they can meet the challenges of caring for loved 
ones in their own homes. A new approach in providing these 
services to caregiver will be shared with us today.
    I look forward to the testimony on Medicaid consumer-
directed services pilot project, a new concept that allows 
seniors and their families to direct their own care. An example 
of a self-directed service is that of cash and counseling 
program, which will allow older persons who have trouble 
managing their finances to hire a financial manager of their 
choice.
    National Senior Center Week, which ended last Sunday, was a 
national recognition of the importance of senior centers. Of 
equal importance is the need to vigorously explore a new vision 
for our nation's senior centers. Although senior centers are 
created and funded at the local level, they serve as critical 
delivery points for various Older Americans Act services. I 
look forward to the testimony on how senior centers will evolve 
to meet the interests and the demands of a new generation of 
older Americans in the 21st century.
    Finally, assistive technologies are also becoming a major 
tool for older Americans. Promising areas of computers to human 
interaction that will allow older Americans to live more 
independently will be discussed.
    So before I turn to and introduce our first witness of our 
panel this afternoon, let me turn to my colleague from 
Louisiana, the senior Senator, John Breaux. John.

              OPENING STATEMENT OF SENATOR BREAUX

    Senator Breaux. Thank you very much, Mr. Chairman. Thanks 
again for holding today's hearing. I would just point out how 
important it is to talk about where we are headed. We are truly 
in a perfect storm, if you would, as far as the aging of 
America is concerned in the sense that we are about to receive 
a huge number, the largest in generations, of individuals who 
will be becoming eligible for senior programs, 77 million baby 
boomers. On top of the large number of people who are going to 
become eligible, that large number of people are living a lot 
longer than any other generation in American history. So we 
have a double problem of having a lot more people who will live 
a lot longer.
    I have jokingly said many times said that good news and the 
bad news is that people are living a lot longer, and the bad 
news is that people are living a lot longer. How will we take 
care of them? Who is going to pay the bills? How much is it 
going to cost? How are we going to be able to do what we as a 
society need to do with regard to allowing people to live not 
just longer lives, but also healthier lives and happier lives 
as they get older?
    So that is the real challenge of America, among the most 
serious challenges, and everything seems to be coming together 
at one time, which is truly a perfect storm as far as the 
geographics are concerned. So hopefully, we will hear some 
ideas today about how to address these problems. Thank you.
    The Chairman. John, thank you very much.
    Our first panel today is Assistant Secretary Josefina 
Carbonell. Josefina, welcome before the committee. The 
Assistant Secretary will discuss issues related to the Older 
Americans Act, will address the rebalancing of the long-term 
care system, the importance of family caregiving and the 
challenges the Older Americans Act programs face in the demand 
of the new baby boomers, much as my colleague has referred to.
    So with that, Assistant Secretary, welcome.

  STATEMENT OF JOSEFINA G. CARBONELL, ASSISTANT SECRETARY FOR 
     AGING, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES, 
                         WASHINGTON, DC

    Ms. Carbonell. Thank you very much, Chairman Craig, Senator 
Breaux, and members of the committee for inviting me to testify 
at this very important hearing. It is especially important 
during Older Americans' Month. This month, and this year's 
theme, is ``What We Do Makes a Difference.''
    As we have discussed before, both globally and here in the 
U.S., we are witnessing one of society's greatest achievements, 
an extension of longevity due to advancements in medicine, 
public health, and technology. At the Department of Health and 
Human Services, we are updating and reenergizing old programs 
and developing new ones that empower and serve older Americans 
in their communities.
    Also I am pleased to announce that today, the Departments 
of Labor and Health and Human Services have transmitted a 
Report to Congress that examines the future supply of long-term 
care workers in relation to the aging baby boom generation. 
Ensuring the adequacy and the availability of direct care 
workers is a critical goal of the Administration and we have 
been taking steps to prepare for the increased demand for 
direct care workers. Our report recommends how to retain 
existing long-term care workers and attract new pools of them. 
It urges continued support of many of the Bush Administration's 
existing efforts to address the growing demand for long-term 
care workers.
    Let me begin with the Administration's initiative aimed at 
rebalancing the long-term care system to create real choices in 
home and community-based care. Currently, 75 percent of public 
long-term care funding goes to institutional care, while many 
people prefer to remain at home.
    Our guiding principles for caring communities are that we 
give seniors and family caregivers affordable choices and 
options; that they have control over their consumer choices and 
what kinds of programs they wish to access; that the 
information is there for them to access the programs; that we 
make sure that we support the family caregivers, one of our key 
components of the rebalancing long-term care system initiative; 
and that quality services be available.
    In the 2004 budget, the President has proposed a $1.75 
billion program titled ``The Money Follows the Person 
Rebalancing Initiative,'' as well as State systems change 
demonstrations that promote home and community-based care 
alternatives. These initiatives represent an historic turning 
point in Federal long-term care policy.
    Shortly, the Administration on Aging and CMS will jointly 
issue a competitive grant announcement to develop one-stop shop 
resource centers. This program will make it easier for 
consumers to learn about and access existing long-term care 
options, including alternatives to institutional care.
    Family caregivers are a key component to ensuring that 
older Americans can continue to remain at home. More than 23 
million Americans are providing assistance to a family member, 
and interestingly enough, 30 percent of the current workforce 
is caring for a relative. If we were to pay for these services, 
it would cost $257 billion per year. This is more than the 
amount spent on formal home care and nursing home care 
combined.
    According to our national data, one out of four caregivers 
report difficulty providing care because of their own physical 
limitation. More than six in ten take care of someone who is at 
least 75 years old. Eighty-eight percent report that our 
services have helped them provide care longer, and 95 percent 
of our caregivers are very or somewhat satisfied with the 
services that they have received.
    At listening sessions in communities throughout the 
country, I hear the recurring difficulties. Whether it is the 
51-year-old son who is the sole caregiver for his blind mother, 
the 80-year-old woman who is struggling to bathe, feed, and 
care for her 102-year-old mother, or the grandmother who lives 
on a working farm in Idaho and is struggling to take care of 
her grandchildren, the message is the same. Just give me a 
little help, a little hope, a little relief, and I can take 
care of my loved one in my own home. Caregivers tell me that 
the Family Caregiver Program is the best program that the 
government provides and many people have thanked me with tears 
in their eyes.
    Let me just share a couple of other personal stories. A 
disabled individual is caring for his wife with Alzheimer's and 
in need of 24-hour care. With help from the Arkansas Caregiver 
Program, she is bathed and gotten ready to attend adult day 
care. This results in time for him to receive his own therapy 
and attend to his own needs. Twice, an elderly Kentucky 
grandmother had put off needed surgery because she would be 
unable to care for her 11-year-old grandson. The program 
arranged for home care and personal care for her own needs 
following the surgery. The North Carolina program installed a 
wheelchair ramp in the home of a daughter so that she could get 
her father in and out of the house without having to carry him.
    Technology is also playing a very important role in 
addressing the two greatest concerns of caregivers, safety in 
the bathroom and transporting the care recipient. Things from 
non-skid surfaces to grab bars and other safety features are 
being installed in bathrooms and in homes across this country. 
Videos are instructing caregivers on the best way and the 
safest techniques for getting disabled individuals in and out 
of vehicles. Nurses are electronically monitoring frail elders 
and their caregivers in between doctors' visits.
    So you see that the caregiver program is really creating a 
new way of doing business in the aging network by focusing on 
caregivers while allowing consumers to have choices.
    Our data further indicates that over 3.8 million caregivers 
have been empowered with information in the last year and 
approximately 436,000 caregivers have been served, far 
exceeding our target of 250,000. Significant numbers have also 
been reached with intensive direct services in counseling, 
training, respite, and many other supplemental services.
    We look forward to releasing the complete caregiver report 
at our national summit in September, which is designed to 
strengthen the capacity of State and community service 
networks.
    Today, I am delighted to release the new PSA called, ``Who 
Cares for the Caregivers?'' currently being sent to over 3,000 
stations throughout the country. We would like to let you be 
the first to preview this 30-second spot following my 
testimony.
    As you see, the administration is taking comprehensive 
action to prepare for the aging of the baby boom population. An 
important component of this effort will be the National Aging 
Services Network, which is well positioned with assets to shape 
our future, including a deeply ingrained focus on the consumer; 
on commitment to early intervention and the social model of 
care; a national network grounded in the community and capable 
of delivering an extensive array of low-cost services; a proven 
track record in leveraging resources; and the capacity to reach 
out and serve private-pay consumers as well as consumers who 
are low-income, culturally diverse, and isolated.
    We cannot afford to maintain the status quo. By working 
together to create systems of care at home as well as 
institutional settings, we can develop a comprehensive approach 
to health and long-term care that truly reflects the needs and 
preferences of older Americans.
    Now is the time to join forces to ensure that the promise 
of independence, choice, and dignity is fulfilled for all 
Americans. Thank you very much, and I would be pleased to 
answer any questions you might have.
    The Chairman. Thank you. You had a video that you wanted to 
show? We will watch this first. [A videotape was shown.]
    Well, that was simple and straight forward. Thank you. That 
obviously communicates a very clear message. Thank you very 
much for your testimony, Madam Secretary.
    [The prepared statement of Ms. Carbonell follows:]

    [GRAPHIC] [TIFF OMITTED] T8497.001
    
    [GRAPHIC] [TIFF OMITTED] T8497.002
    
    [GRAPHIC] [TIFF OMITTED] T8497.003
    
    [GRAPHIC] [TIFF OMITTED] T8497.004
    
    [GRAPHIC] [TIFF OMITTED] T8497.005
    
    [GRAPHIC] [TIFF OMITTED] T8497.006
    
    [GRAPHIC] [TIFF OMITTED] T8497.007
    
    [GRAPHIC] [TIFF OMITTED] T8497.008
    
    [GRAPHIC] [TIFF OMITTED] T8497.009
    
    [GRAPHIC] [TIFF OMITTED] T8497.010
    
    [GRAPHIC] [TIFF OMITTED] T8497.011
    
    [GRAPHIC] [TIFF OMITTED] T8497.012
    
    [GRAPHIC] [TIFF OMITTED] T8497.013
    
    [GRAPHIC] [TIFF OMITTED] T8497.014
    
    [GRAPHIC] [TIFF OMITTED] T8497.015
    
    The Chairman. Currently, would an 80-year-old woman, say, 
taking care of her 55-year-old disabled daughter be able to 
receive family caregiving services?
    Ms. Carbonell. Any person over the age of 60 can receive 
any kind of benefits from the Older Americans Act, from 3(b) 
supportive services in senior centers, adult day care, home 
care, respite, to meals and other services that are provided 
under the Act. So the answer is yes, Senator, an 80-year-old 
woman can receive respite services and other supportive 
services available through the entire service network provided 
under all the titles in the Older Americans Act.
    The Chairman. In your view, how will the Older Americans 
Act need to evolve to meet the demands of this new wave of 
boomers that we are talking about and the demographics of them, 
I guess I would say, different from previous generations that 
we hope are currently covered under existing law?
    Ms. Carbonell. As indicated, of course, in our written 
testimony and as we heard from both Senators speaking about the 
tremendous challenge ahead of us, I think we are looking at a 
future where the senior centers will look a little different 
than the senior centers for my mother and my grandmother looked 
20, 25 years ago.
    So we are looking at how senior centers are evolving in 
many communities across this country. We are looking at more a 
comprehensive holistic approach to the scope and the 
availability of services. We are looking at a transformation 
from just serving an older population, to serving a multi-
generational population and becoming more like community and 
family centers.
    So, therefore, the appeal across generations is going to be 
critical as the challenges of the baby boom generation evolve. 
We are going to see the availability or the need to provide 
better choices, to have better linkages, through technology, to 
caregivers across the country. That is why the new Family 
Caregivers Program has given us the ability to add an 
additional component to our base programs to ensure that we are 
serving the younger caregiver, or the caregiver aging with 
multiple generational challenges.
    We are looking at the possibility of many of the senior 
centers having both health clubs and Starbucks coffee houses 
and community houses where people will remain active within the 
community for a multi-generational purpose.
    We need to ensure that senior centers of the future, 
obviously, continue to address many of the challenges of the 
health needs to maintain people healthy and active in their 
communities. We need to ensure that the nutrition program, 
which is one of our key programs within the Older Americans 
Act, continues to evolve and improve to ensure that we get 
better outcomes on reducing malnutrition and improving health 
outcomes for individuals. Also, the availability of leisure and 
volunteer activities, employment opportunities, where they can 
seek a homemaker that can assist them at home, but at the same 
time maybe seek a part-time employment or volunteer opportunity 
in their community.
    The Chairman. I don't think there is any question. I have 
had several discussions over the last couple of years about the 
design of the new center as really a point of full contact for 
seniors and the services that are provided for them and their 
needs, certainly unique and different from the kind that we see 
today.
    Dominant in my State of Idaho in many senior centers is a 
quilting room. Quilting, obviously a delightful art form and a 
pastime of many older Americans and now has become almost a 
modern art form again. But ironically, the newest request to go 
in beside that quilting room is a computer room.
    Ms. Carbonell. Absolutely.
    The Chairman. With about 11 million seniors now online, I 
think it demonstrates even more that kind of transition.
    The Administration on Aging has been working on performance 
outcome measures for services provided under the Older 
Americans Act. Can you please give us an update on your 
progress as it relates to those reviews?
    Ms. Carbonell. We are very excited with the outcomes that 
we are generating. We have taken a step back and really 
readdressed our issues of reporting. So we have taken a first 
job at ensuring that we reduce the reporting formats for 
programs to ensure that we get the kind and the quality of data 
that we need, not excessive data with no outcomes at the end.
    Not only are we reaching the numbers of individuals that we 
set our goals to reach, just in the actual production of the 
numbers, as we saw with the National Family Caregivers 
Programs, but we are making a difference, ensuring that we 
target--a high percentage to those most at risk or those most 
vulnerable.
    For instance, 30 percent of the clients served in the Older 
Americans Act programs are elderly poor. That means that we are 
targeting our priority to those in most need. We also are over-
serving. Thirty percent of the clients are in rural 
communities, compared to 24 on a national basis. In particular, 
States where we know that the rural issues are critical, with 
our new National Family Caregivers, we are expanding our 
availability to have comprehensive collaborations with the 
health care providers and others in the community that we had 
not had the opportunity to do. We are serving a large 
percentage of people that are from minority at-risk 
communities.
    We are leveraging some interesting dollars. Even with 
States' economic downturn, overall States are leveraging about 
$2 for every $1 of the AOA dollar put in many of the States. 
For intensive services, like in-home care, we are leveraging $3 
to every $1 AOA dollar.
    We are seeing excellent increases in recruiting of 
volunteers for the senior Medicare patrols, as well as who are 
ombudsmen within the communities, and improving the outcomes of 
the Ombudsman program by working together with CMS on their new 
quality initiative, both in the nursing home and obviously in 
the home health area.
    The Chairman. Thank you. Will you do a white paper on those 
findings, or how will they be reported to us?
    Ms. Carbonell. They will be reported--we have an annual 
report which is our own specific annual report----
    The Chairman. It will show up in those?
    Ms. Carbonell [continuing]. That we are proud to--it is hot 
off the press.
    The Chairman. OK.
    Ms. Carbonell. It is not out. It will be out at the end of 
this week, but we have brought a copy that we will leave with 
you.
    The Chairman. Fine.
    Ms. Carbonell. In addition, the final outcome data of the 
national surveys, which is a new survey that has been added to 
the outcome measurements and performance data, will be ready 
later this summer, and those will be released and we will be 
glad to provide them to Congress and to the Chair.
    The Chairman. Super. Thank you.
    I am going to turn to my colleague, Senator Breaux. A vote 
has just started. I am going to run and vote and come back and 
we will do tag team here so that we can keep our hearing going. 
John?
    Senator Breaux. Thank you, Mr. Chairman. Thank you, Madam 
Secretary.
    You mentioned in your testimony that the President's budget 
for 2004 requests for CMS a $1.75 billion program to encourage 
a transition of people from nursing homes or other long-term 
care institutions back to the community, and you correctly 
point out that we really have an institutional bias in long-
term care in this country in keeping people in institutional 
care. An awful lot of people, in fact, need long-term, 24-hour-
a-day, 7-day-a-week care, but there are an awful lot of them 
that are in institutional care like nursing homes that don't 
need to be there.
    Yet, almost 75 percent of all the money we appropriate is 
being used principally through the Medicaid program to put 
people in nursing homes. It is really an embarrassment, because 
you have got to spend yourself poor to get money to get long-
term care, which is a real embarrassment as a society, but that 
is a whole other point.
    How would the money that the President is proposing be used 
to end this institutional bias that we are talking about?
    Ms. Carbonell. Well, I think that--not only the rebalancing 
initiative, but several other initiatives, including the New 
Freedom and the systems change grants, have allowed and are 
beginning to allow many States the opportunity to begin to 
rebalance their systems. In the rebalancing proposal, the 
opportunity, if they wish, to invest in shifting folks from a 
nursing home into home and community-based care. It provides a 
1-year, 100 percent Federal reimbursement for all costs to move 
and to pay for services to move individuals from a nursing home 
into home and community-based care. That is virtually how we 
envision the framework that was proposed to Congress for the 
2004 budget.
    In anticipation of those changes, we have been working and 
there have been system choice grants already given out to 
States which have allowed States to begin to address removing 
barriers, institutional and infrastructure barriers, that 
prevent individuals from living independently in their own 
homes. So it has addressed structural changes and 
reimbursements at the State level for making those changes, 
both policy and resource-wise.
    Senator Breaux. Of course, the problem at the State level 
is that the States can do that now simply by requesting a 
waiver from HHS to use their State Medicaid funds for non-
institutional care, like assisted living facilities. The 
problem has been that they don't want to do it. The problem has 
been that they have a bias toward nursing homes, in many cases 
because of the political strength of the nursing homes that 
prevent legislators from allowing them to make the request.
    My concern is I don't understand how this is going to help 
the situation, because the problem is with the States not 
wanting to do it. They can do it now.
    Ms. Carbonell. Well, they can do it now, right now, 
Senator, but the current reimbursement mechanism would be the 
same match that the States have at the current time. With the 
rebalancing proposal, it provides 100 percent Federal 
reimbursement to States for one year, so they can begin to 
shift it. That, coupled with the fact that the Administration 
on Aging is partnering with CMS to create, again, the 
involvement of a single-entry or one-stop-shop place where 
people can turn for help and assistance, where there will be 
one single entry point in the system to long-term care, that 
will allow the individual better choices. Right now those 
programs are fragmented.
    So some States, a few of the States, have their long-term 
care system, including their Medicare waiver programs, managed 
by the aging network, the aging State unit. But the rest of the 
States have, of course, their Medicaid waiver and long-term 
care program managed by their State health or Medicaid agency.
    Senator Breaux. So are we saying that under this proposal, 
the State would get the same amount of money under Medicaid 
plus the States would divide up $1.75 billion in addition to be 
used for non-institutional care?
    Ms. Carbonell. Correct. That means that it is an historic 
investment, a change in the way that we offer incentives to 
States to begin to shift policy and resources to home and 
community-based care to create more balance.
    Senator Breaux. This is not a subtraction from what they 
would normally get under Medicaid?
    Ms. Carbonell. This proposal is an addition and it is 100 
percent for one-year. This one-year reimbursement at 100 
percent for States wishing to pilot and to begin to shift 
policy and programs to home and community-based care.
    Senator Breaux. So a State will get 100 percent with no 
State match to allow them to move out of a nursing home?
    Ms. Carbonell. For the first year, sir, yes, and the rest 
of the years, it comes back to the State match as stipulated.
    Senator Breaux. Why are we doing a 100 percent match? 
Aren't we just telling the States we are going to pay 100 
percent of the cost if somebody moves out of a nursing home?
    Ms. Carbonell. Well, this is an historic turning point----
    Senator Breaux. It certainly is.
    Ms. Carbonell [continuing]. We feel very confident that a 
1-year, coupled with other supports will help. I am not CMS so 
I defer that kind of question to my colleagues----
    Senator Breaux. What happens, then, if we do it for 1 year 
and a State moves 20 percent of their nursing home population 
into an assisted living facility and the Federal Government 
picks it all up? What happens to those people when the Federal 
Government sunsets it after one year?
    Ms. Carbonell. Well, in those States where we have seen the 
experience of shifting resources, a consolidation of resources 
and programs into one single entity for long-term care, the 
experience and the studies and the data have shown that they 
have actually reduced their costs in general, and have improved 
the number of people being able to be served under home and 
community-based services by mixing of services available both 
in-home and community-based care and nursing home.
    So that means that, No. 1, people have been able to 
successfully be transitioned out of nursing homes into home and 
community-based care programs. We know that the data shows that 
those States that have invested dollars in shifting to home and 
community-based care have done so cost effectively and have 
been able to continue to do so.
    Senator Breaux. I have no qualms with the principle that it 
is cheaper and, I think, more convenient and a better degree of 
care for a large number of people to be in non-
institutionalized care. I think that is what we ought to be 
encouraging States to do, something that they can do now but 
they don't in most cases.
    I need to learn more about this $1.75 billion and how it 
would actually work. I think it is the right thing to try and 
ultimately accomplished. I am not certain that this is the best 
way to do it because I am concerned about if we do it to them 
for one shot and then the next year it is not there, they are 
going to be left with an awful lot of people hanging in 
facilities that they didn't think they were going there for one 
year. All of a sudden, the money is not going to be there in 
the second year and what happens to all of those people?
    Ms. Carbonell. We would like to follow up with you, 
Senator, and bring you additional information with my colleague 
at CMS, Tom Scully. Obviously, that is not just the only thing 
it involves. Obviously, our role at the Administration on Aging 
is that the administration and the aging network is one of the 
largest providers of home and community-based care throughout 
this country and we are ready, we are experienced, we have 
proven to be cost effective, and we are ready to take on the 
next step, which means work collaboratively, partnering with 
CMS, because you have got an existing structure that is evident 
throughout 29,000 providers and communities. We are doing it 
for the grant monies right now and in many cases, about 30 
percent of the States, the aging network is managing and 
operating the Medicare waiver home and community-based care 
services in communities.
    So we are--the one-stop-shop initiative will give us the 
ability to partner with CMS to ensure that we integrate the 
service systems at the community level and that we incentivize 
and award competitive grants that will be released later on 
this month to do just that, to begin to shift----
    Senator Breaux. We will follow up on that.
    Ms. Carbonell. Thank you.
    Senator Breaux. You are aware, apparently, of our hearing 
yesterday, because you reference it in your testimony. I think 
that what we learned yesterday is that there is an enormous 
bias in America, in our own country, against seniors in a lot 
of areas. One of the most important areas is the general area 
of health care.
    Our medical schools do not have enough geriatric degrees. 
Only five schools in the entire United States medical schools 
out of 125 have full departments of geriatrics. Yet all of them 
have full departments in pediatrics.
    We have clinical trials for prescription drugs that are 
ongoing that do not fully utilize, if hardly at all, seniors in 
the testing, even though most of the people who take 
prescription drugs, over half are seniors, but they are not 
involved in the clinical trials to develop the drugs and to 
ensure that they are safe.
    We have a bias and a lack of utilization among seniors in 
preventative care programs that are available to others. We 
have, I think, a lack of understanding of depression among 
seniors. The highest suicide rates in this country is not among 
teenagers but among seniors, and we had testimony that doctors 
don't recognize it because they haven't been trained. Too many 
times, seniors are just dismissed as being, well, they are old 
people. They are going to die anyway.
    I think that we as a society need to be striving for not 
just getting seniors to live longer, but to live better lives. 
I have said it a million times. Part of living better lives is 
to make sure that they have access to the same type of quality 
preventative services and health services that someone who is 
in their 20's or 50's or even younger.
    So, I mean, what can the Administration on Aging, when you 
look out over America and you see this discrimination against 
aging and people who are seniors, what can the Administration 
on Aging do to become a leader in this area, to eliminate these 
biases that currently exist?
    Ms. Carbonell. At the Administration on Aging, obviously is 
the chief advocate for aging and older Americans across the 
country, we not only are taking a chief advocacy role, but we 
are actually running programs and collaborating with other 
agencies to ensure that we begin to tear down those barriers 
that ensure not only quality of care for our seniors, but a 
better quality of life, obviously.
    If you look at the report released today on, long-term care 
workers in relation to the aging baby boom generation, you will 
see substantial recommendations in to Congress based on the 
kinds of urgency that there is to address not only the 
shortages of professional workers, but also ensure that 
paraprofessional quality training continues to happen.
    We are working with HRSA inasmuch as the Health Resource 
Services Administration is addressing geriatric education in 
their 2003, spending approximately $12 million in continuing to 
fund geriatric education centers across this country.
    We are working with the Agency for Health Research and 
Quality, AHRQ, to ensure that there is safety in medications 
and that the medications' overuse is addressed and the safety 
and products of the medication are there. FDA is expanding its 
consumer information opportunities, and that includes the 
working relationship between FDA and AOA, to improve that 
consumer information education.
    On mental health, we have just developed and are about to 
launch by the end of this month a tool kit that SAMHSA has 
provided to ensure that we address mental health, depression, 
substance abuse, and other issues in older populations.
    So we are taking active steps with our partners in CMS to 
address prevention services and the expansion of prevention 
services.
    The whole Medicare proposal before you in the 2004 budget, 
the President's 2004 budget, obviously not only aspires to 
provide for prescription drug benefits for seniors, but it is 
looking at a more comprehensive reform as we improve the 
capacity to do prevention and screenings for all Medicare 
beneficiaries.
    So we are taking active steps with CDC in our aging State 
programs. Our aging network providers are partnering in ten 
specific communities across this country where there is high 
incidence of risk behaviors and health disparities. We are co-
funding with CDC initiatives in this program with public health 
providers and our community aging providers.
    Senator Breaux. Thank you. Thank you, Mr. Chairman.
    The Chairman. John, thank you.
    One last question, Madam Secretary, before we turn to our 
next panel group. I understand the administration has been 
involved in a series of listening sessions. What exactly have 
you learned from people out there receiving and providing older 
Americans' services?
    Ms. Carbonell. Well, the most important thing is that the 
flexibility and the ability of many of our providers with the 
new reauthorized Act has awarded us the flexibility needed to 
address consumer choice at the local level. So the improved 
capacity for program sharing, for having the new Family 
Caregiver Program, has allowed us the opportunity to create new 
partnerships and collaborations at the State level, whether you 
are looking at private sector elder care programs or benefit 
programs being matched together with many of our Area Agencies 
on Aging and caregiver providers in the community.
    I just came back from a town hall session in Orange County, 
CA. We held that town hall meeting in collaboration with the 
aging network and the disability advocates. We were able to 
come together as one to address some of the barrier removals 
and some of the challenges that we both have both in the aging 
and disability communities to promote independence in 
communities, and address better opportunities for home and 
community-based care.
    We are looking, obviously, at hearing from seniors, like I 
mentioned, particularly in the area of grandparents. We see 
that there are challenges in many of the grandparents raising 
grandchildren that we need to continue to address as we move 
forward, and the National Family Caregiver Program evolves and 
there are obviously opportunities as the reauthorization of the 
Older Americans Act becomes evident just in 2005.
    The Chairman. Thank you. Thank you very much for your 
testimony, the work you are doing, and all of the efforts well 
underway. I think all of us kind of view, whether we are at the 
policy level or the implementation of that policy, at your 
level, kind of feel we are in that interesting transitional 
time out there into a relatively known field, at the same time 
with expectations and demands that are not yet known in many 
respects as it relates to the aging of America.
    But we thank you very much for that testimony and look 
forward to our continued work with you.
    Ms. Carbonell. Thank you.
    The Chairman. Thanks for being here.
    Let us ask, then, the next group of panelists to come 
forward, please, Maria Greene, Kevin Mahoney, Ron Aday, and 
Gregory Abowd.
    Mr. Mahoney, we will try to deal with you in dispatch. We 
understand you have a family problem or concern and we will 
move you through as quickly as possible.
    Let me thank our panelists for being with us. I recognize 
Maria Greene, Director of the Georgia Division on Aging. She 
will visit with us today about the features of Georgia's family 
caregiving efforts, including a mobile day care program.
    Maria, welcome, and we look forward to your testimony.
    Ms. Greene. Thank you.
    The Chairman. Please proceed.

  STATEMENT OF MARIA GREENE, DIRECTOR, GEORGIA DEPARTMENT OF 
    HUMAN RESOURCES, DIVISION OF AGING SERVICES, ATLANTA, GA

    Ms. Greene. Good afternoon, Senator Craig. Thank you for 
the opportunity to come this afternoon. I am Maria Greene, 
Director of the Georgia Department of Human Resources, Division 
of Aging Services. Also with me today is Mr. Cliff Burt, 
Caregiver Specialist responsible for Georgia's caregiver 
program.
    I would like to share information with you about five 
innovative caregiver initiatives. They are caregiver research, 
assessment, mediation, consumer-directed care, and mobile day 
care.
    Georgia conducted 11 focus groups to solicit input from 
family and professional caregivers regarding needs and gaps in 
services. We found that caregivers need more information, more 
direct services, training for themselves, and better trained 
non-ageist providers. The results of the focus groups have been 
used to integrate the National Family Caregiver Program into 
the existing delivery system, expansion of existing services, 
and development of new programs and services.
    Georgia was awarded grants from the Administration on Aging 
to participate in the performance outcomes measurement project. 
The Division participated in the development of instruments 
that measure caregiver support and satisfaction, nutrition 
risk, physical functioning, and emotional well-being. We tested 
these instruments over a 3-year period. We are encouraging Area 
Agencies on Aging to use the instruments in determining service 
outcomes, quality and client satisfaction, and how best to 
manage using data.
    We understand, Senator Craig, that the committee has an 
interest in mediation. Georgia is one of the three States 
participating in a caregiver demonstration grant received by 
the Center for Social Gerontology in Ann Arbor, MI. The goal of 
the project is to use mediation to assist frail older persons 
and their family caregivers to address and resolve problems and 
disputes which all too frequently arise when families face the 
physical, emotional, and financial demands of providing care. 
Elder law attorneys using mediation skills have helped many 
families resolve conflicts.
    We value the philosophy of consumer-directed care. 
Preliminary studies have found that 77 percent of caregivers 
utilize funds to hire someone to provide care, and 80 percent 
of the caregivers hired someone they know as opposed to agency 
personnel. Caregivers who participate in the program are 
considerably more satisfied with those services than those who 
receive traditional services.
    I will share with you a story told to me recently. The 
caregiver for 94-year-old Mr. K called the local Area Agency on 
Aging about using some of the fund from the self-directed care 
program to make needed bathroom repairs. The caregiver utilized 
some of the self-directed funds to purchase needed materials 
and secured volunteers to make the necessary repairs. 
Consequently, her father is able to bathe by himself for the 
first time in many years. The caregiver stated that her dad 
never had a tub and had to use a very small shower stall. Her 
father, who last year would not bathe, has to be coaxed out of 
the tub. She and her father would like to thank all of those 
responsible for the program.
    Given the well-documented long-term care staffing crisis in 
the nation, the unavailability of services, and fewer workers 
in rural areas, it should come as no surprise that our 
preliminary findings show that family caregivers wholeheartedly 
embrace self-directed care.
    Through funding provided by the Administration on Aging, 
Georgia developed the mobile day care program. Mobile day care 
enables communities to have their own day care programs while 
sharing staff who travel between locations. Mobile day care has 
proved to be a great respite care alternative. Its flexibility 
with part- and full-time staff positions helps to retain 
qualified staff. Perhaps its greatest values is that it builds 
trust in rural communities and thus becomes the precursor of a 
full-time day care program.
    Georgia's ability to do caregiver research, assessment, 
mediation, consumer-directed care, and mobile day care has 
enabled us to create new partnerships and paradigms to meet the 
diverse and increasing needs of caregivers. One of the National 
Family Caregiver Support Program's hallmarks has been the 
component of supplement services, which has enabled the aging 
network the flexibility needed to become more innovative. The 
product of that flexibility is improved service delivery, new 
services, and increased empowerment for caregivers. Also, the 
demonstration grants have allowed States like Georgia to pilot 
new delivery of care systems, gather consumer satisfaction 
data, and to manage programs using those data.
    Mr. Chairman, with your permission, may we show a short 
clip of the mobile day care video.
    The Chairman. Surely.
    Ms. Greene. Thank you. [A videotape was shown.]
    Thank you.
    The Chairman. Thank you. Thank you very much for that 
testimony and the video.
    [The prepared statement of Ms. Greene follows:]

    [GRAPHIC] [TIFF OMITTED] T8497.016
    
    [GRAPHIC] [TIFF OMITTED] T8497.017
    
    [GRAPHIC] [TIFF OMITTED] T8497.018
    
    [GRAPHIC] [TIFF OMITTED] T8497.019
    
    [GRAPHIC] [TIFF OMITTED] T8497.020
    
    [GRAPHIC] [TIFF OMITTED] T8497.021
    
    [GRAPHIC] [TIFF OMITTED] T8497.022
    
    [GRAPHIC] [TIFF OMITTED] T8497.023
    
    [GRAPHIC] [TIFF OMITTED] T8497.024
    
    [GRAPHIC] [TIFF OMITTED] T8497.025
    
    [GRAPHIC] [TIFF OMITTED] T8497.026
    
    [GRAPHIC] [TIFF OMITTED] T8497.027
    
    [GRAPHIC] [TIFF OMITTED] T8497.028
    
    [GRAPHIC] [TIFF OMITTED] T8497.029
    
    [GRAPHIC] [TIFF OMITTED] T8497.030
    
    [GRAPHIC] [TIFF OMITTED] T8497.031
    
    [GRAPHIC] [TIFF OMITTED] T8497.032
    
    [GRAPHIC] [TIFF OMITTED] T8497.033
    
    The Chairman. Now, let us turn to Kevin Mahoney, Program 
Manager for a demonstration project which highlights 
innovations in consumer directed care. Would you please 
proceed? Thank you.
    Dr. Mahoney. If I might just have a second to get this set 
up.
    The Chairman. All right. Thank you. I want to also say that 
you are a National Program Director at Cash and Counseling 
Demonstration Project in Chestnut Hill----
    Dr. Mahoney. At Boston College.
    The Chairman. There we go. Thank you. Now we have it all 
out.

    STATEMENT OF KEVIN J. MAHONEY, PH.D., NATIONAL PROGRAM 
  DIRECTOR, CASH AND COUNSELING DEMONSTRATION AND EVALUATION 
   PROJECT, BOSTON COLLEGE GRADUATE SCHOOL OF SOCIAL WORKS, 
                       CHESTNUT HILL, MA

    Dr. Mahoney. Thank you, Mr. Chairman and members of the 
committee. Today in most States, whether you are elderly or a 
younger person with disabilities, if you are on Medicaid and 
you need help with such basic things as bathing, dressing, 
getting out of bed, you rarely have any choice over who helps 
you, when they come, or what they do. But for years, people in 
the disability community have been saying, if I had more 
control over these services, my life would be a lot better and 
I think I could do it for the same amount of money or less.
    The Cash and Counseling Demonstration and Evaluation is, in 
fact, a real major test of just that idea. It is a test of one 
of the ultimate forms of consumer direction, where people are 
given the choice between traditional services from agencies or 
managing the equivalent amount of a cash allowance themselves 
with supports. It is a major test, one that involves over 6,700 
people in three States who have been randomly assigned for this 
demonstration.
    Janice Maddox is a perfect example of the desire of seniors 
to have more control over who enters their home and who 
provides intimate care. At 75, Mrs. Maddox does not have the 
best health. She has diabetes and glaucoma and is confined to a 
wheelchair possibly as a result of several strokes. But despite 
her physical frailty, Mrs. Maddox possesses a tremendous asset, 
an extensive support network of family and friends who want to 
help her continue to live independently.
    For 5 years, Mrs. Maddox received personal assistance 
services from aides sent to her by an agency that contracted 
with Medicaid. Then her daughter read about Arkansas's Cash and 
Counseling Program in the newspaper. Mrs. Maddox enrolled and 
her oldest daughter, Johnetta Thurman, became her 
representative decisionmaker. Mrs. Maddox's monthly allowance 
through Cash and Counseling pays her adult granddaughter to 
spend at least 2 hours a day, 7 days a week, attending to Mrs. 
Maddox's needs. Her allowance is also used to pay her grandson 
$10 a week to do odd jobs around the house and helps cover the 
cost of such things as over-the-counter medications and 
toiletries.
    Mrs. Maddox's daughter, who lives in Chicago and travels 
frequently to Arkansas to make sure her mother's needs are 
being met, believes the program has made an immense impact in 
improving the quality of her mother's life. She says, ``There 
is just something about having family look after her. She 
doesn't get nearly as many allergic reactions or bedsores now, 
and I think that's because when it's your own you're looking 
after, you pay more attention.''
    The Cash and Counseling Demonstration and Evaluation is 
really a rather unusual creature. It is completely co-funded by 
the Robert Wood Johnson Foundation and the Office of the 
Assistant Secretary for Planning and Evaluation at HHS. It 
operates under Medicaid waivers granted by the Centers for 
Medicare and Medicaid Services. The quantitative evaluation 
that I am going to present to you, the first results, was done 
by Mathematica Policy Research. The qualitative evaluation that 
is my favorite follows about 25 people close up and personal in 
each of the three States and tells how this really affects 
their lives.
    The program takes place in three States, Arkansas, Florida, 
and New Jersey. In all three States, it includes older people 
and younger adults with disabilities. Florida is different. 
They also include children with developmental services.
    What I would like to do in these few minutes today is 
present the first of our research results. they are from 
Arkansas which was the first State to implement this. To 
Arkansas's credit, they implemented the cash and counseling 
option within a month of when they got the Federal waivers. 
These particular findings that we get to share today are from a 
controlled experiment, so in Arkansas, we had a little over 
2,000 people enrolled. Half of them were randomly assigned to 
the traditional system, half to managing the cash allowance.
    When we looked at quality of care measures, we looked at 
four: satisfaction, reduction in unmet need, health outcomes, 
and affects on overall quality of life.
    Just a key to sort of give a picture of this, the left side 
are younger adults with disabilities. The right side are the 
elderly. The red bars are the treatment group. Those are the 
people that got to manage the cash allowance. The ``C'' is the 
control, is the traditional system. Whenever you see an 
asterisk, it is statistically significant. The more asterisks, 
the more statistically significant. Rarely will you in your 
lifetime as a researcher get a chance to see that kind of 
results, over 20 percentage points improvement in some of these 
measures of satisfaction.
    When you turn to the second measure, unmet needs, you start 
seeing reduction, major reductions there.
    The results people were really looking for the most were 
the health outcomes, and I am pleased to be able to report that 
basically the health outcomes were either as good, or where 
there were differences, they favored the people who managed 
their own allowance. You can see the elderly had fewer 
contractures while younger persons with disabilities had fewer 
bedsores. Overall life satisfaction was also improved. The 
final slide shows the schedule for the rest of our reports.
    Each of these three States is looking at making cash and 
counseling a permanent option. The Robert Wood Johnson 
Foundation and HHS are looking at how we can expand this option 
to other States. Thanks.
    The Chairman. Thank you very much for that testimony. That 
is exciting, you are right, to see those kinds of results, 
Kevin, are very impressive.
    [The prepared statement of Dr. Mahoney follows:]

    [GRAPHIC] [TIFF OMITTED] T8497.034
    
    [GRAPHIC] [TIFF OMITTED] T8497.035
    
    [GRAPHIC] [TIFF OMITTED] T8497.036
    
    [GRAPHIC] [TIFF OMITTED] T8497.037
    
    [GRAPHIC] [TIFF OMITTED] T8497.038
    
    [GRAPHIC] [TIFF OMITTED] T8497.039
    
    [GRAPHIC] [TIFF OMITTED] T8497.040
    
    [GRAPHIC] [TIFF OMITTED] T8497.041
    
    [GRAPHIC] [TIFF OMITTED] T8497.042
    
    [GRAPHIC] [TIFF OMITTED] T8497.043
    
    [GRAPHIC] [TIFF OMITTED] T8497.044
    
    [GRAPHIC] [TIFF OMITTED] T8497.045
    
    [GRAPHIC] [TIFF OMITTED] T8497.046
    
    [GRAPHIC] [TIFF OMITTED] T8497.047
    
    [GRAPHIC] [TIFF OMITTED] T8497.048
    
    [GRAPHIC] [TIFF OMITTED] T8497.049
    
    [GRAPHIC] [TIFF OMITTED] T8497.050
    
    [GRAPHIC] [TIFF OMITTED] T8497.051
    
    [GRAPHIC] [TIFF OMITTED] T8497.052
    
    The Chairman. Now, let us turn to Dr. Ron Aday. Dr. Aday is 
Director of Aging Studies, Middle Tennessee State University. 
Welcome, Doctor.

STATEMENT OF RONALD H. ADAY, PH.D., DIRECTOR OF AGING STUDIES, 
      MIDDLE TENNESSEE STATE UNIVERSITY, MURFREESBORO, TN

    Dr. Aday. Thank you, Senator Craig. It is a pleasure to be 
here today to discuss the significance of senior centers and 
the important role that they will play in meeting the diverse 
needs of our nation's baby boomers.
    The challenge, of course, centers around the diversity of 
this population, as you mentioned earlier, in terms of 
ethnicity, the well, the frail, and, of course, an age span 
from 60 to 100 or more. So it is a tremendous challenge that we 
are facing.
    This year, senior centers are celebrating their 60th year 
as an entity and are serving over ten million clients annually 
at approximately 1,400 senior centers. They have a strong 
infrastructure, a dedicated staff that certainly has 
demonstrated an openness to exploring ways of how to meet the 
upcoming challenges for serving the baby boomer generation.
    There are several ways that senior centers might be able to 
empower this group in the coming decades. I think it is very 
important to provide what I refer to as survival skills for the 
baby boomers and, of course, in many cases, their aging 
parents, as well.
    One of the research outcomes I have recently found in 
surveying senior centers from seven States and approximately 20 
senior centers, was that the senior center environment is 
conducive to the establishment of social support networks, 
where seniors feel responsible for each other and assist each 
other in order to help maintain their independence. About 85 
percent of the sample reported that friends they have made at 
the senior center provided them with a sense of emotional 
security and someone that they can depend on in time of need.
    Eighty-five percent also said that they provided some type 
of assistance to their friends that they had made at the senior 
center. I think that is very significant as we look at how to 
create a more independent baby boomer generation as they 
progress in age. This social network, of course, combats 
depression, loneliness, especially for those that live alone. 
We have a large number of female senior center users in 
particular that live alone.
    Another, main area where senior centers can certainly 
empower and help our baby boomers is through what has been 
termed self-care initiatives. Most senior centers currently 
provide health and wellness programming, which brings about 
positive behavioral changes. In the future, chronic care 
clinics will emerge as an even more important component of 
senior centers.
    The senior center that I have been serving on the board for 
for the last 12 or 15 years, when we reconstructed the new 
senior center that we opened 4 or 5 years ago, we actually 
built within that construction a nurse-on-duty program. It was 
actually in place, and so we have a nurse that comes there 2 
days a week, provides a clinic. She also works at the 
university where I do. It is a partnership between the 
university and the senior center. They bring nursing students 
to the senior center and provide assistance and screening, and 
she has at the present time 400 open cases where she sees on a 
regular basis, providing screening and drug management kinds 
of--and information to them.
    A third area that we see, I think, is really looking at the 
baby boomers in the future, who many of them will want to 
continue to work into their 70's. That is one of the things 
that the literature tells us. But the senior center can evolve, 
I think, to provide retirement counseling for those that may 
choose to retire, but also retraining and employment for those 
that want to continue. We know that based on advanced 
technology, that many of us will phase in and out of several 
careers over a lifetime and the senior center can certainly be 
the environment where baby boomers in their 60's might be able 
to come and get retrained. Senior centers in this way will 
serve as continuing education centers, where they will provide 
programming and innovations and it will be, I think, beyond 
computer skills. We talk about computer skills today. While 
computer labs are found in many senior centers today, 
additional computer and other new information will be important 
technological to baby boomers in order to remain current in the 
21st Century.
    Also, another, senior centers are now getting involved in 
what we call civic engagement programming, and that is trying 
to find a balance between leisure and recreational activities 
as well as civic commitment. We know that we need to utilize 
the services and the potential that baby boomers have as they 
age and as they enter into the long-term care continuum. So we 
want to utilize their services, and so attracting them to the 
senior center for their education, for their skills, for 
volunteer work, is going to be extremely important.
    Finally, a connection to other generations is also very 
important and senior centers can play a very important role in 
this process, by providing adult day services, services for 
helping family caregivers, grandparents' support groups, 
latchkey children telephone assistance, and also mentoring for 
juvenile diversion programs, to maintain a few examples.
    While senior centers are now recognized as one of the most 
widely utilized services created by the Older Americans Act, 
they are in some ways still the very best kept secret based on 
the outcome measures that are telling us we really can't afford 
not to utilize the senior center network to its fullest in the 
coming decades. If given the adequate resources, senior centers 
will help make aging a new adventure for our baby boomers. 
Thank you very much.
    The Chairman. Thank you very much, Doctor. The concept of a 
new or futuristic senior center was brought to my attention 
some months ago when a group met with me in Boise, ID, to talk 
about creating, if you will, a kind of model of a future 
center. I think, clearly, with the dynamics of this aging 
group, you are right. I have oftentimes thought how computer 
centers are important today. All of these folks entering will 
be mostly computer literate. They will simply be wanting to 
advance themselves in those skills as that part of our 
technology evolves, along with a lot of others.
    I often have thought, yes, and they need an employment 
center or an employment contact and maybe even some training. 
So certainly what you have talked about seems to clearly be a 
part of what others are visiting about and what some are 
thinking about in a sincere and direct way. Thank you.
    [The prepared statement of Dr. Aday follows:]

    [GRAPHIC] [TIFF OMITTED] T8497.053
    
    [GRAPHIC] [TIFF OMITTED] T8497.054
    
    [GRAPHIC] [TIFF OMITTED] T8497.055
    
    [GRAPHIC] [TIFF OMITTED] T8497.056
    
    [GRAPHIC] [TIFF OMITTED] T8497.057
    
    [GRAPHIC] [TIFF OMITTED] T8497.058
    
    [GRAPHIC] [TIFF OMITTED] T8497.059
    
    [GRAPHIC] [TIFF OMITTED] T8497.060
    
    [GRAPHIC] [TIFF OMITTED] T8497.061
    
    [GRAPHIC] [TIFF OMITTED] T8497.062
    
    [GRAPHIC] [TIFF OMITTED] T8497.063
    
    [GRAPHIC] [TIFF OMITTED] T8497.064
    
    The Chairman. Now, let us turn to Dr. Gregory Abowd, 
Associate Professor, College of Computing at Georgia Institute 
of Technology in Atlanta, GA. His research interests lie in 
human-to-computer interaction--hmm, I need some of your 
courses.
    Dr. Abowd. We all do.
    The Chairman. I don't interact well. [Laughter.]
    Dr. Abowd. It is not your fault.
    The Chairman. The smart home, or the aware home research 
initiative, or the smart home project for aging Americans. 
Thank you. Please proceed.

STATEMENT OF GREGORY D. ABOWD, ASSOCIATE PROFESSOR, COLLEGE OF 
    COMPUTING, AND GVU CENTER DIRECTOR, AWARE HOME RESEARCH 
          INITIATIVE, GEORGIA INSTITUTE OF TECHNOLOGY

    Dr. Abowd. Mr. Chairman, thank you for giving me this 
opportunity to speak about such an important topic and to allow 
me to talk about how I think this country can use high 
technology or advanced technology to meet the needs of an 
increasing aged population.
    I have a very simple message, and that is that advanced 
technology holds great promise for promoting healthy and 
independent aging, but we must be more proactive to realize 
this promise. Aging is not a disease, and while there is 
significant research exploring how technology can provide 
assistance for individuals coping with disabilities or disease 
as they grow older, the role of technology in enhancing the 
lives of older but otherwise healthy Americans is not well 
understood or appreciated.
    I am a computer scientist and an expert in the area of 
ubiquitous computing, meaning the spread of computing artifacts 
throughout the physical world to support everyday activities. 
Though my work presents great technical challenges, the 
motivation to work in this area is largely the human-centered 
agenda of providing assistance in our everyday lives.
    Over the past 5 years, with support from the National 
Science Foundation, the State of Georgia, and several major 
computing companies, we have been exploring ubiquitous 
computing in the home. We refer to our efforts as the Aware 
Home Research Initiative, with the challenge of creating a home 
that serves its inhabitants because it is empowered with an 
awareness of their whereabouts and activities.
    A major motivation for this work is that an aware home, 
properly connected to trusted caregivers, can provide the 
assistance needed for otherwise healthy individuals to cope 
with the natural declines related to aging. Advanced 
technologies can be pleasingly woven into the fabric of our 
homes, allowing us to age in place. An aware home can promote 
independence and quality of life for an aging population, and 
there are tremendous social and economic incentives to do this.
    Now, what do I mean by advanced technological supports? In 
my written statement, I catalog a wide variety of technological 
supports for an aging population. To summarize for you here, 
there are three categories of interest. First, you have 
assistive devices that compensate for motor, sensory, or 
cognitive deficiencies. Then you have monitor and response 
systems that provide both emergency response to crisis 
situations as well as early warning for less critical and 
emerging problems. Finally, we have communication aids that 
provide a link between an individual and a network of formal 
and informal caregivers.
    The greatest promise for advanced technology lie with the 
cognitive aids, the monitoring of trends, and novel 
communication aids. I will demonstrate some of these 
technologies at the end of my statement, with your permission.
    Now, who will benefit from these technological supports? 
First and obviously, we provide assistance directly to the 
individual in an attempt to support their independence and 
quality of life.
    Second, this technology provides support for distributed 
family members and other more formal caregivers who share the 
financial and emotional burden of coping with the challenges of 
aging.
    Third, with the increase of broad-band networking into and 
out of the home, we have greater capability to support the 
activities of larger institutions providing medical, emergency, 
or other social services.
    Finally, scientific evidence of a quantifiable benefit of 
advanced technology for healthy aging will encourage the 
development of profitable business plans that drive private 
investment and commercial success in this important market.
    Now, what role does advanced technology research play? One 
of the key indicators of independence is the measured 
performance by an individual in activities of daily living. The 
role for advanced technology, therefore, is the detection, 
measurement, and even improvement of an individual's 
performance with these various activities in their living 
environment.
    Until now, most assessment of independence has been done by 
humans and this solution won't scale to provide proactive 
support for a large population. Hence, advanced technology is 
necessary. In my written statement, I have surveyed emerging 
technological aids, but I must stress that there remain 
significant advances in technologies of sensing and long-term 
analysis of human behaviors that will not occur unless 
sufficient funding is made available.
    I want to make two recommendations to the committee. First, 
we need basic technology research for sensing and measuring 
these activities of daily living. The funding for these basic 
technological advancements could be administered by agencies 
such as the NSF that traditionally fund scientific and 
engineering developments that eventually benefit society.
    Second, we need large-scale test beds for evaluating 
technology for healthy aging. Research into how best technology 
serves the aging should be administered by groups whose 
mandates focus on public health concerns. This funding will 
make sure that the technology is well matched to the needs of 
the community. It will also lay groundwork for a healthy aging 
industry that will bring the research success to the 
marketplace.
    With the permission of the Chairman, I would like a few 
minutes to demonstrate three separate projects that bring to 
life some of the ideas I have been talking about that we have 
been working on at Georgia Tech.
    The Chairman. Please, go ahead.
    Dr. Abowd. I want to demonstrate three separate projects 
that are taking place at Georgia Tech as part of the Aware Home 
Research Initiative.
    In the first demonstration, we focus on the potential for 
automatically detecting behaviors. Even with proper initial 
training, people often misuse home health care devices, such as 
the blood glucose monitor that is pictured here. I am sorry you 
can't see on the monitor. Advanced computer vision algorithms 
can observe the use of a device and automatically detect when a 
sequence of actions is done incorrectly, providing an 
opportunity to give immediate training advice. The video shown 
here at the top demonstrates how our computer vision algorithms 
track hands and various objects to label the actions as a user 
attempts to calibrate the blood glucose meter.
    An important form of cognitive aid is one that compensates 
for near-term memory lapses. When an activity such as cooking 
is interrupted, what visual cues provide the right information 
to pick up where you left off? In the Aware Home, we have 
instrumented the kitchen area with cameras looking down at the 
countertop, shown in the bottom figure. An LCD panel is updated 
with salient images of the cooking activity as it is occurring. 
When interrupted, a simply glance at the display shows the most 
recent activity.
    Now, I am going to switch to a live demonstration. What you 
see here is the image on the LCD panel that is being updated 
occasionally with images being detected by a wizard sitting 
outside the kitchen determining when a significant activity 
occurs. The bottom right figure in this collage is updated to 
show you the most recent activity, and the numbers in the 
various panels indicate repeated activities, such as one, two, 
or three cups of the same ingredient being placed in the bowl. 
So that when someone glances at the collage, they can determine 
where they would have left off, and frequently in our 
controlled studies, it has been the repeated measures 
activities that get forgotten. So you don't remember the number 
of cups of flour that you have put in.
    Now, we don't currently have the ability to automatically 
detect the salient images to produce this collage, but we have 
been simulating the collage in controlled studies to determine 
its value, and given the progress on detecting simple 
activities, as I showed on the previous example with the blood 
glucose monitor, I hold very great hope that we will be able to 
provide these kinds of visual reminders automatically in the 
home of the future.
    In my last example, I want to contrast with the previous 
two. In the previous two examples, we showed services that 
stayed within the home and serviced the individual. This last 
demonstration is about connecting to caregivers, in particular, 
the natural support group of family and friends who want to 
maintain peace of mind for the well-being of older parents or 
loved ones.
    The digital family portrait shown here is an ordinary 
picture of a loved one that has been augmented with information 
in the frame to communicate how that person is doing over the 
last month. This is an aesthetically pleasing way to keep in 
touch with the everyday well-being of a loved one and it can be 
modified to support the normal monitoring activities of 
professional caregivers and assisted living facilities or 
naturally occurring retirement communities, referred to as 
NORCs. I can also demonstrate this, but for the sake of time, I 
would like to thank you for your patience.
    The Chairman. Doctor, thank you very much for that 
testimony. I was telling staff, earlier in the day, I took a 
tour of a smart home that a large software company in Seattle, 
WA, developed. I guess for sake of not promoting advertising, I 
won't mention the name.
    Dr. Abowd. They don't sponsor us, either, so---- 
[Laughter.]
    The Chairman. I found it very fascinating. It would do 
about everything you asked it to do by just simply voice 
command, and certainly could be adapted to someone with 
disabilities or someone with problems. It could make their life 
a good deal easier, including monitoring.
    I think I was recalling the thing most fascinating about 
it, in the evening before the person retired, they could go to 
their laptop or their computer and activate an automatic in-
place e-mail to a loved one somewhere else telling them that 
they were safe and retiring for the evening, the very similar 
kind of thing that you see in retirement centers today in 
individual apartments and living facilities that go to a 
central station to monitor a person's activities. I thought, 
hmm, a most useful approach.
    Thank you for that testimony.
    [The prepared statement of Dr. Abowd follows:]

    [GRAPHIC] [TIFF OMITTED] T8497.065
    
    [GRAPHIC] [TIFF OMITTED] T8497.066
    
    [GRAPHIC] [TIFF OMITTED] T8497.067
    
    [GRAPHIC] [TIFF OMITTED] T8497.068
    
    [GRAPHIC] [TIFF OMITTED] T8497.069
    
    [GRAPHIC] [TIFF OMITTED] T8497.070
    
    [GRAPHIC] [TIFF OMITTED] T8497.071
    
    [GRAPHIC] [TIFF OMITTED] T8497.072
    
    [GRAPHIC] [TIFF OMITTED] T8497.073
    
    [GRAPHIC] [TIFF OMITTED] T8497.074
    
    The Chairman. I am going to turn to Dr. Mahoney now, and 
then if you wish, at the end of this--I have got a couple of 
questions of you, Doctor--if you need to depart, please do so 
and we thank you again for being here today and your patience 
with us.
    You were giving us a variety of work that is going on, 
studies of comparatives. What percentage of the participants in 
this demonstration project classify as older Americans?
    Dr. Mahoney. In Arkansas, from which I just presented the 
data----
    The Chairman. Yes.
    Dr. Mahoney [continuing]. About 72 percent of the 
individuals that took part were elderly, and that certainly 
dispels the myths that older people aren't interested in 
managing services themselves. The percentages change in the 
other States, but maybe 50 percent in New Jersey, and just by 
nature of the demonstration, maybe about a third in Florida.
    The Chairman. That is fascinating to hear, and absolutely, 
they are concerned about that kind of management. It is a 
matter of controlling their own lives or having some say in it 
and feeling comfortable about it, I would guess.
    Does the study you reference in your testimony consist of a 
side-by-side comparison of older Americans receiving services 
in the traditional fashion compared to those applying consumer-
directed choices?
    Dr. Mahoney. If I understand correctly, exactly. People who 
volunteered to take part in the demonstration were, in fact, 
randomly assigned, so half of them went to the traditional 
system, half of them got the chance to manage the cash 
allowance, and with that kind of numbers, given that we had 
about 6,700 people enroll in the three States, this is a very 
powerful way of evaluating these impacts.
    The Chairman. Does your study conclude that better services 
can be achieved at the same costs? Is there a net cost savings?
    Dr. Mahoney. I knew you would ask that. As I was showing, 
the cost results will be our next effort.
    The Chairman. OK.
    Dr. Mahoney. We are hoping those will come out over the 
summer. The good news is, at this stage, for instance, for 
Arkansas, they are meeting the Center for Medicare and Medicaid 
Service's budget neutrality requirements, so their research and 
demonstration waiver has just been extended another 5 years, 
and they have been able to get rid of the randomization, so at 
this point, everyone who wants to be part of this demonstration 
can be.
    The Chairman. Excellent. As you know, rural areas often 
face challenges accessing services. Has the demonstration 
project been implemented in rural areas of the host States, and 
if so, what has been the results?
    Dr. Mahoney. The demonstration was in the whole State of 
Arkansas, the whole State of New Jersey, and in Florida, for 
elderly people and adults with disabilities, the lower two-
thirds of the State, children for the whole State. This is a 
demonstration particularly helpful in rural areas and where it 
is very hard for agencies to serve, where the worker shortage 
was at its worst.
    One of the things we found in Arkansas was if you 
interviewed the people 9 months after they came in, for people 
who were getting the cash allowance, 95 percent of them were 
getting personal assistance services, whereas for those in the 
traditional side, only about two-thirds of the adults with 
disabilities and only about 80 percent of the elderly were 
getting their care plans met. So in times of worker shortage, 
and especially in rural areas, this is a wonderful, a wonderful 
choice.
    The Chairman. Back me up a bit. You are saying those that 
were under the cash plan.
    Dr. Mahoney. Right.
    The Chairman. Actually were getting greater levels of 
service than those under the traditional programs.
    Dr. Mahoney. Right. Well, for instance, in the treatment 
group the consumer got a cash allowance exactly equal to what 
that person would have received under the traditional program, 
but they got to decide how to spend it on meeting their 
personal care needs. They had to develop a individualized plan. 
They could hire friends, family, people who wouldn't have been 
in the workforce. They could renovate their homes, or buy 
assistive devices. Whereas in the traditional system, where 
there was such trouble finding aides and workers, in many cases 
people just didn't get the services that were called for in the 
care plan.
    The Chairman. I am treading into water that I will be a 
little cautious on, because I have all the respect in the world 
for professional, well-skilled, trained caregivers, but are we 
suggesting by this that there are others capable of rendering 
care and service to a given senior that they can seek out who 
may not be as well trained or trained in some areas as a 
professionally trained person, but certainly are capable of 
delivering those services, and as a result, the service got 
delivered?
    Dr. Mahoney. Right. I think that is fair. I am involved in 
caring for my mother. In so many cases, basic services that 
families provide aren't skilled medical services.
    The Chairman. No.
    Dr. Mahoney. This is help bathing, dressing, toileting.
    The Chairman. Exactly.
    Dr. Mahoney. Remember what we found here. Those results 
show that the health effects were either the same or where they 
differed better for those who manage their own allowance. The 
younger adults with disabilities had fewer bedsores when they 
could choose people who really knew them and had a personal 
relationship.
    The Chairman. That is fascinating. Well, I trust you will 
keep the committee and our staff abreast of your work and the 
conclusions, the balance of the work you are doing. As our time 
and our focus permits, we will have you back to give us an 
analysis of the studies when they are completed.
    Dr. Mahoney. We would very much enjoy that. Thank you.
    The Chairman. Thank you. I find those findings fascinating. 
I appreciate your time, and please feel free to leave if you 
feel it necessary based on your schedule.
    Dr. Mahoney. Thank you for your consideration. Thank you.
    The Chairman. Now, let me turn to you, Ms. Greene. What you 
are doing in the flexibility you are offering, is exciting. 
What challenges has your agency faced in implementing the 
Family Caregiver Support Program in Georgia, challenges and/or 
obstacles?
    Ms. Greene. Well, when we did our caregiver focus groups to 
find out what our citizens or caregivers said they wanted or 
didn't want, we recognized right away that we had some 
challenges. They said that they wanted more information, 
assistance and referral. They wanted more training for 
themselves. They felt that our current providers needed more 
training, that they were agist. They requested more respite 
care.
    Probably the most challenging, but the one that we had a 
lot of interest from other organizations, was with the training 
aspect. We have coordinated with AARP, the Georgia Gerontology 
Society, a staffing solutions workgroup, the Alzheimer's 
associations, all came together to address the issue of not 
only training informal caregivers better, our personnel staff. 
That has been very interesting and I have really enjoyed the 
collaborative work with all the different associations to help 
make that happen.
    The Chairman. In what ways could the self-directed approach 
you have mentioned be applied in the delivery of other aging 
services?
    Ms. Greene. We were talking most recently about we have a 
dire need for transportation, especially most of the counties 
in Georgia are rural counties. We were talking about the 
possibility of hiring or making arrangements for friends and 
neighbors also to transport people to services, and so that is 
another consideration that we are looking for. But we have a 
real need that we need to address in transportation that our 
current level of fund sources, from all different fund levels, 
is not an adequate amount to meet the transport needs.
    The Chairman. Now, here is a question that dovetails with 
the work that Dr. Mahoney is doing and it was a question 
lingering in the back of my mind that I think, well, certainly 
with the program you have established, Doctor--or let me ask 
the question and feel free, if you would, to come in after Ms. 
Greene to talk about this approach.
    Some concerns have been expressed that allowing families to 
hire relatives and friends to provide care might result in the 
misuse of funds. What has been your experience in Georgia?
    Ms. Greene. So far, we have not seen any misuse of funds, 
probably better management of the funds. We have a service 
coordinator in every region, so the family members and the care 
receiver develop a plan or they decide how they can best use 
the funds. Right now, there is an average of $1,200 to $1,500 
spent a year. So they just call their service coordinator and 
they say, ``This is what we really need.'' Mom has had another 
stroke. Now she is in a wheelchair. We really need to build a 
ramp, for example. The service coordinator then OKs the 
expenditure of the funds and then they are reimbursed for the 
service. So we really have not seen any misuse of the funds.
    The Chairman. Doctor, do you wish to comment on that?
    Dr. Mahoney. I will put it in this context. The Arkansas 
project got underway in December 1998, New Jersey a year later, 
and Florida in June of 2000. We have had no major instances of 
fraud and abuse. In this context, of people who hired their own 
personal assistance workers, I think about 75 percent hired 
some level of family member and maybe another 17 percent hired 
people they knew through church, through their neighborhood: 
One of the things you end up finding is that they have hired 
people that had a real personal relationship that made a 
difference. That is not to say that we don't have important 
monitoring and quality management processes in each of these 
States, which again, I would be pleased to share.
    The Chairman. Thank you. This February, I held a hearing on 
the misuse of guardianships over the elderly. I was disturbed 
by accounts that the wishes of older Americans and their 
families are oftentimes ignored by persons bringing forth these 
actions. How does Georgia's mediation program prevent this type 
of undue control over a person's life?
    Ms. Greene. The people who have been trained to be 
mediators have worked actively with the Probate Judges' 
Association, and in Fulton County, which is the largest probate 
office in the State, they have agreed that prior to--when 
someone comes to the court to petition that they become a 
guardian of someone, that they are then provided information 
and educated about the mediation process. It is not mandated by 
the court, but it is strongly encouraged by the court that they 
go through the mediation process.
    So we are real excited about the relationships with the 
probate judges and that we have the largest county agreeing to 
work with us actively to seek mediation with families. So a lot 
of it, I think, is education, not only to the families about a 
mediation option, but also to the court system, that it is a 
viable option that could work and also save a lot of grief and 
financial cost.
    The Chairman. Thank you very much for your being here and 
your testimony and the work you are doing. I find all of that 
very fascinating.
    I had one other question as it related to mobile day care. 
Does the program have a wellness screening component in it?
    Ms. Greene. Yes, sir, it does. In fact, we have a statewide 
wellness program and it is done in conjunction with all of our 
other service components, and so they are screened to what 
ability they might be able to participate in exercise, 
nutrition education, medications management.
    The Chairman. Good. Thank you. Thank you very much.
    Dr. Aday, the work you are doing is fascinating to me 
because it is always intriguing to me about anyone's ability to 
successfully predict the future or at least to look outward and 
determine what needs might be. For a baby boomer that has just 
turned 60 and is relatively healthy and active, what would be 
the appeal for this older American to attend a senior center? I 
am assuming when I ask that question that this 60-year-old 
would be attending a senior center of today.
    Dr. Aday. Since I turn 60 next year, I will try to answer 
that as best I can.
    The Chairman. Oh, my goodness. We are getting truly 
personal testimony here. Thank you.
    Dr. Aday. Personal testimony. [Laughter.]
    I think when we look at today as well as the future, I 
think that the senior center certainly provides different 
functions. Certainly, a 60-year-old could come to the center 
for a very different reason than maybe that person's aging 
parent. You might come to the senior center to bring your aging 
parent, as we have adult day services in our center, to drop 
them off, and you might want to go then engage in a day trip 
and then return that evening, for example.
    But as I mentioned earlier, I think some of the other 
activities that we see already going on in senior centers do 
include things like retirement counseling and retirement 
training. We have lifelong learning that has been a steadfast 
component of senior centers for a number of years. So those are 
some of the kinds of activities, educational classes that might 
be inviting. Basically, if you have partnerships with local 
universities, they can offer topics that would attract a 60-
year-old.
    I think some other factors that would also attract when you 
are talking about coming into a senior center, would be the 
opportunity to provide leadership skills on a community senior 
center board. We know that if our senior centers are going to 
become more sophisticated, the governing boards must also be 
sophisticated, and so we have to attract really quality people 
in leadership roles that can move senior centers forward in the 
21st century. I have observed that very thing happen in my 
community. It just so happened that the people on that board 
and on our city council who were assigned to the advisory board 
enabled us to do some very progressive things.
    So I think that you have to have forward-looking people and 
many of those are going to come from the young-old group. 
Someone who can come and provide leadership and volunteer 
services and assist with your other older clients that are also 
participating in senior center programs.
    The Chairman. How many senior centers in this country today 
have that kind of appeal to them, from your understanding and 
study?
    Dr. Aday. The recent research that I did, and it wasn't a 
random sample, but certainly 90 percent of the respondents 
indicated they were very satisfied with the knowledge and 
information that they were getting at their senior centers. We 
know that senior centers, of course, are very diverse. Some of 
them are open on a part-time basis. They may have just a 
director and that is all that person does. They are very 
limited in terms of funds.
    On the other hand, you have multi-purpose senior centers, 
and I don't know the exact number that would fall into that 
category. I think we do need some additional research really to 
look at where we are today as far as providing this myriad of 
services and then also looking at what kind of projections, 
what kind of plans these 1,300 or 1,400 senior centers have in 
the future and what they have currently in place.
    We know that NISC and other organizations are providing 
leadership with getting senior centers accredited, so they will 
become accredited entities which will, give senior centers a 
much more professional kind of appeal and it also enables, I 
think, the people that are funding senior centers to know that 
they have a quality product. But I don't know the exact number 
that are certainly in what we call the progressive mode now as 
far as providing these kind of services.
    The Chairman. The one thing that I often hear from 65-year-
olds is, well, I don't go to senior centers. They are for old 
folks. But the kind of center you are talking about, with those 
kinds of dynamics and services and opportunities in them, 
wouldn't classify in that sense. So 10 or 15 years down the 
road, should we be calling them senior centers?
    Dr. Aday. That is certainly an issue that is being 
discussed in the network at the present time. I don't think 
there are really any conclusions that have been drawn, whether 
you want to call them centers for vital aging or even taking 
the term ``senior'' out of it.
    I was very excited when I became a senior in high school 
because I had seniority. [Laughter.]
    When I became a senior in college, likewise. When I became 
a senior professor. So it seems like we like to be a senior 
executive, but when it comes to equating the term senior we 
have difficulty accepting it with age. It goes back to what I 
think Senator Breaux was talking about. We have kind of 
implanted this ageism, well, now, I can't be a part of that 
group and rather look forward to it. So I think it really 
speaks to our society when we have trouble embracing where we 
are chronologically.
    So I think each center or each community will have to make 
that decision, since senior centers are built and primarily 
funded at the local level. They will determine what they are 
going to be termed and what will be the best way of getting 
people there.
    It could be marketing. I think one of the issues we have 
here is just the stereotype that senior centers provide 
congregate meals and bingo. So it is just a lack of knowledge 
of what really goes on in senior centers.
    The senior center campus that I work with is really more 
like a high school. If you go into it, you have a computer lab 
and you have classrooms and you have all these classes. So 
inside, the decor looks more like an educational unit than it 
would what we call the traditional senior center. Now, not all 
senior centers, of course, are at that particular stage, but I 
think part of it is going to be dealing with how we market 
ourselves and how we can appeal and attract that younger person 
coming in.
    We do know that the baby boomers are going to be much more 
educated than today. I think by 2030, twice as many will have a 
college diploma as today. The research that I conducted in 
seven States, 20 percent had college degrees that were coming 
to the senior center. So we are seeing a different kind of 
clientele and they are going to be demanding different kinds of 
services. I think when you get more of those people to come 
they tell their friends about it. Word of mouth in many cases 
is the best way that you can market a good product. I think 
what we are talking about today is evolving, and so this is not 
going to happen overnight, but I think over a period of time. 
We should see an evolvement and a change in the clientele and a 
new mission for senior centers.
    The Chairman. Thank you very much for your testimony and 
the work you are doing. I find it fascinating, because it 
really is a part of the quality of life that these baby boomers 
are going to be moving toward, and I think they are going to be 
a group of our citizens who are going to be a good deal more 
demanding simply by their level of entry into that community of 
interest and their uniquenesses that will be very different 
from their parents.
    Dr. Aday. They have had an impact at every stage.
    The Chairman. Oh, yes.
    Dr. Aday. This will be no different.
    The Chairman. Now, how, Doctor, can we move technology into 
that senior community? Let us talk about the home that you are 
talking about and the sophistication involved. In your opinion, 
how long will it be before the average person will have access 
to the sophisticated technologies like the awareness home that 
you have demonstrated here?
    Dr. Abowd. It depends on what kind of service you are 
talking about. Some of the demonstrations that we have done and 
technology we have built, for example, the digital family 
portrait, is all done with technology and capability that we 
have today. There is no real magic behind a project like that.
    What we are lacking with something like that is a business 
plan that would encourage people to invest in and provide this 
kind of service to distribute to family members, for example, 
although on that note, we have had a number of people who have 
seen the digital family portrait and have on their own 
essentially mocked up their own version of sensing in their 
parents' home, with a way to dial up and produce information to 
a central server that then can provide information at any place 
the individual desires.
    The best way to leverage off the kind of existing 
technology we have in the homes today is to not require 
identity to be part of the sensed equation. So if you were to 
use the basic motion-detecting sensors that are in home 
security systems right now and you used that information for a 
household that has one or two family members, you can make very 
good inferences about where an individual is, or even more 
importantly, how much that individual is moving around, so you 
can communicate to someone else in a secure way about that. So 
for those kinds of applications, we could do that today.
    For some of the more sophisticated applications that 
require understanding of an activity, like the blood glucose 
meter example I gave, where you are trying to understand where 
someone is in a relatively simple and straightforward 
sequential process, that is possible to do today in the 
laboratories, but in very controlled settings. It wouldn't work 
if I just deployed that in anyone's home without any control 
over the ambient lighting. So there needs to be a significant 
amount of advances in making those algorithms more robust, and 
I think we are talking a 5- to 10-year horizon before the 
research is robust enough to be able to produce those kinds of 
services.
    But before we have those kinds of capabilities, we want to 
be able to get a glimpse of what that future would be like and 
to evaluate what services would be important and which ones 
would not. That is why a project--why I showed you the cook's 
collage, the reminder system in the kitchen. It is being done 
with smoke and mirrors, but it is being used to conduct 
controlled studies to find out if we could get the technology 
to do that automatically, would it be a valuable memory service 
in the home, so that we can inform the advanced technology 
research about what kinds of problems they do need to solve in 
the next 5 to 10 years because we see the value in terms of 
helping an older population.
    The Chairman. I recently reviewed a technology that would 
have to have a cooperative effort of the food manufacturer with 
certain software programs, but there was a code on the back of 
a given container of food that when moved across a scanner 
could project up on a screen a large read-out of how to prepare 
that food, or the simple instructions that might be beyond the 
visual capability of the person. It would simply plant out on 
the kitchen screen that could be used for a multitude of other 
purposes as to how to program the--or it may even program the 
microwave itself, preparing it for that particular food. Have 
you looked at any of those or seen any of those kinds of 
technologies?
    Dr. Abowd. Yes, I have. What is very interesting about the 
kind of technology you are talking about is it is becoming very 
affordable to essentially tag all items with--in the past, we 
have used bar codes, so we can use optical scanning to be able 
to read them. But there are problems with line of sight, being 
able to see the code.
    With the kind of technology you are referring to, one of 
which is radio frequency identification tags, or RFID, you 
don't need line of sight and you can essentially fashion a 
region of space that can read a code on any tagged item that 
comes near it. So, for example, placing something on the 
countertop, the counter then knows what is placed on top of it 
and there are a lot of activities or possibilities you can 
leverage on top of that.
    So it is because these kinds of simple sensing technologies 
are now commodity technologies that work very reliably that we 
can provide these kind of services. One simple example we have 
done in the aware home, and we are one of the first to do this 
kind of activity, is we have used that RFID technology in a 
slightly different way, to provide location information for 
individuals and objects within the house. So we fashioned floor 
mats that sit at various strategic points in the house and 
individuals wearing non-powered tags somewhere below the knee, 
usually attached to the shoe or around the ankle, then just 
need to walk in the aware home and it will pick up what room or 
what location they are in.
    That information feeds directly into something like the 
digital family portrait. It also feeds into a variety of other 
kinds of applications that can leverage off that room level 
awareness. So it is a very exciting time from the sensing 
perspective, because we can now realize these kinds of 
applications in the living environments like a home.
    The Chairman. You have mentioned several technologies. Any 
others that you see that are going to be a direct asset to this 
kind of home?
    Dr. Abowd. I think a critical kind of technology, I talked 
about doing a purpose-built laboratory like the aware home. 
Also, there are continuing care retirement communities that are 
being special built for which you can, at the time you 
construct the building, can put in special kinds of 
technologies.
    But the real problem is being able to retrofit existing 
communities. So these naturally occurring retirement 
communities with the technology to provide the same kind of 
capabilities, and there, I think, wireless technologies are 
advancing to the point where we will be able to retrofit 
relatively easily lots of sensing and communication 
capabilities that won't require you to tear down the walls and 
won't be all that difficult to be able to put into homes. So 
that is when you will start to see the real mass market effect.
    The Chairman. Well, I concur with you. Obviously, the 
rather simple process now of creating wireless technology for 
your home, for your laptop and all of that, is really 
phenomenally simple and relatively inexpensive. Of course, all 
new--not all, many new homes are now being wired with that kind 
of capability, so that is very positive.
    The interesting thing about the new technologies is that 
the baby boomers won't be as hostile to them, obviously, as the 
generation before them, and quite understandably so. Also, the 
best part about it is if they don't understand them, they can 
just ask their grandkids. [Laughter.]
    They will give them a rather simple explanation of how to 
do it, because they will have figured it out a long time before 
that.
    Doctor, we thank you very much for your testimony and your 
work. Those are exciting new opportunities, I think, as we move 
along, and we appreciate it very much.
    Dr. Abowd. Thank you for the opportunity to present it.
    The Chairman. To all of you, thank you very much for being 
with the committee today and helping us build a record in these 
areas. We believe it is extremely important as we look at 
especially the opportunity and the challenge of this baby 
boomer generation that is about to be upon us, and as a member 
of that generation, I am going to be as demanding as any of the 
rest of us, I suspect. But I also want our public policy to be 
prepared for us when we get there.
    Thank you all very much for being with the committee today. 
The committee will stand adjourned.
    [Whereupon, at 3:53 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              


[GRAPHIC] [TIFF OMITTED] T8497.075

[GRAPHIC] [TIFF OMITTED] T8497.076

[GRAPHIC] [TIFF OMITTED] T8497.077

[GRAPHIC] [TIFF OMITTED] T8497.078

[GRAPHIC] [TIFF OMITTED] T8497.079

[GRAPHIC] [TIFF OMITTED] T8497.080

[GRAPHIC] [TIFF OMITTED] T8497.081

[GRAPHIC] [TIFF OMITTED] T8497.082

[GRAPHIC] [TIFF OMITTED] T8497.083


</pre></body></html>
